App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 18-12238
-----------------------------------------------------------------------

D.C. Docket No. 6:15-cv-00469-GKS-DCI
SEANA BARNETT,
Plaintiff-Appellant,
versus
SARA MACARTHUR, et al.,
Defendants-Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Middle District of Florida
-----------------------------------------------------------------------

(April 15, 2020)
Before JORDAN, GRANT, and DUBINA, Circuit
Judges.
JORDAN, Circuit Judge:
In the early morning hours of March 15, 2014,
Seminole County Deputy Sara MacArthur arrested
Seana Barnett on suspicion of driving under the influence of alcohol and transported her to the Seminole
County Jail. At the Jail, Ms. Barnett twice took a
breathalyzer test, and both times the results were
a blood alcohol level of 0.000. Though the tests

App. 2
established that Ms. Barnett was not intoxicated by
alcohol and there was no evidence that she was impaired by any other drug or substance, she was detained for eight hours—even after she posted bond—
pursuant to the DUI eight-hour “hold policy” of the
Seminole County Sheriff ’s Office. Two months later,
the state entered a nolle prosequi on the DUI charge
against Ms. Barnett.
Ms. Barnett sued Deputy MacArthur and the
Sheriff of Seminole County under 42 U.S.C. § 1983, alleging that they violated her Fourth Amendment
rights by falsely arresting her and by unlawfully detaining her. She also asserted state-law claims for
false imprisonment and malicious prosecution. Deputy
MacArthur and the Sheriff moved for summary judgment on all claims. The district court denied qualified
immunity to Deputy MacArthur, and we affirmed
that ruling on interlocutory appeal. See Barnett v.
MacArthur, 715 F. App’x 894 (11th Cir. 2017).
The district court ultimately granted summary
judgment in part against Ms. Barnett but allowed the
§ 1983 unlawful arrest and detention claim against
Deputy MacArthur and the state-law false imprisonment claim against the Sheriff to proceed to trial. As
relevant here, the district court ruled that the Sheriff—as a representative of the County—could not be
liable under § 1983 pursuant to Monell v. Department
of Social Services, 436 U.S. 658 (1978), because his
“hold policy” was permitted by Florida law. The jury ultimately returned a verdict in favor of the defendants
on the two claims that survived summary judgment.

App. 3
Ms. Barnett appeals the district court’s grant of
summary judgment on some of her claims and the denial of her motion for a new trial following the jury’s
verdict on the remaining two claims. We reverse the
entry of summary judgment in favor of the Sheriff on
the Monell claim related to Ms. Barnett’s detention,
but summarily affirm in all other respects.1
I
We begin by setting out the evidence presented at
summary judgment on the detention claim against the
Sheriff under Monell.
A
On March 15, 2014, at around 6:00 p.m., Ms. Barnett
went out to dinner with her friend Alicia Norwood in
downtown Orlando. After dinner, they walked around
the area. At the end of the evening, Ms. Barnett drove
Ms. Norwood home, from downtown Orlando back to
Seminole County, in Ms. Norwood’s car.
On the drive home, at around 3:25 a.m., Ms. Barnett
stopped for about 8 to 10 seconds at a green light. She
stopped to assess which way to turn because it was
dark, she was unfamiliar with the area, and Ms.
Norwood was providing confusing directions, initially
1

For example, the district court correctly granted summary
judgment to the Sheriff on Ms. Barnett’s state-law malicious prosecution claim. That claim, which requires a showing of malice, is
barred by Fla. Stat. § 768.28(9)(a). See Weiland v. Palm Beach
Cty. Sheriff ’s Office, 792 F.3d 1313, 1330 (11th Cir. 2015).

App. 4
telling her to make a left and then changing her mind
about which way to go to take a shortcut home. There
were no other cars nearby.
After seeing the vehicle stop at a green light, Deputy MacArthur activated her in-car video and followed
Ms. Barnett for a short distance before initiating a traffic stop. According to Deputy MacArthur, she observed
Ms. Barnett driving about 10 miles under the speed
limit (35 miles per hour in a 45-miles-per-hour zone),
drifting from left to right within her lane, and varying
her speed between 35 and 40 miles per hour. Ms. Barnett
disputes that she was driving erratically. She contends
that the video shows no perceptible drifting in her lane
and does not show her varying her speed, other than
when she slowed down to turn left. For purposes of our
discussion, we accept Ms. Barnett’s version of events.
When Deputy MacArthur approached the car and
spoke to Ms. Barnett, she asked for her driver’s license,
registration, and proof of insurance. Ms. Barnett provided her driver’s license, but according to Deputy
MacArthur, she needed to be reminded again to provide her registration and proof of insurance. She attempted to open the glove compartment to retrieve
the documents, but “fumbled” with the button and
was unable to open it. The parties dispute whether Ms.
Barnett’s eyes were “glassy” and “bloodshot,” so we
assume they were not.
Before it became clear to Ms. Barnett that she was
being investigated for driving under the influence,
Deputy MacArthur asked her if she had any medical

App. 5
issues. She said no, thinking that she was being asked
if she had any medical conditions—such as a seizure
disorder—that would prevent her from driving safely.
Deputy MacArthur then asked Ms. Barnett if she
had been drinking, and she responded that she had a
glass of wine with dinner at around 6:00 p.m. that
evening. After that, Deputy MacArthur asked if she
was willing to participate in field sobriety exercises.
Ms. Barnett agreed, but she did not know what the
exercises would entail. Deputy MacArthur proceeded
to conduct horizontal and vertical gaze nystagmus
evaluations, a walk and turn exercise, a one-leg stand,
a finger-to-nose test, and a number-counting exercise.
Upon realizing what the tests involved, Ms. Barnett repeatedly told Deputy MacArthur that her performance
could be affected by injuries she sustained in an automobile accident in October 2013, including muscle
tears in her leg for which she was going to physical
therapy.2
This was Deputy MacArthur’s first or second time
making a DUI arrest, and the parties dispute whether
she explained, administered, and interpreted the results of the field sobriety tests properly. The parties
also dispute how well Ms. Barnett performed on the
field sobriety tests, some of which occurred outside the
2

Ms. Barnett had also undergone neck surgery just two
days earlier. Ms. Barnett asserts in her brief that she told Deputy
MacArthur about this surgery after learning what the field sobriety tests entailed, but it is unclear from the record whether Deputy MacArthur was informed about the neck surgery. See D.E. 64
at 211.

App. 6
view of Deputy MacArthur’s dashboard video camera.
Deputy MacArthur claims that she witnessed multiple
indicators of impairment, while Ms. Barnett denies
there were any such indicators. Again, we accept Ms.
Barnett’s factual assertions.
Deputy MacArthur arrested Ms. Barnett for driving under the influence. On the way to the Seminole
County Jail, Deputy MacArthur told Ms. Barnett that
she thought she was impaired because of alcohol.
At her deposition, Deputy MacArthur testified
that there was no indication that Ms. Barnett had been
using drugs. Specifically, she did not observe any evidence of drugs in Ms. Barnett’s vehicle, find any drugs
in her purse, or smell marijuana in her car. Ms. Barnett,
moreover, did not slur or speak in a manner that suggested she was impaired. Indeed, Deputy MacArthur
testified that she did not have probable cause to believe
that Ms. Barnett was under the influence of drugs. See
D.E. 64 at 104 (“Q. Well, you didn’t have any probable
cause to believe she was under any drugs or any kind
of prescription medicine or anything when you arrested her, correct? . . . A. Correct.”). In the arrest and
offense reports, Deputy MacArthur indicated that the
arrest was alcohol-related and that any drug use was
unknown: “Alcohol Related: Y”; “Drug Related: U.” See
D.E. 35-4 at 2; D.E. 64-14 at 1.
B
When Ms. Barnett arrived at the Jail, Keith
Betham, the breath test operator, observed her for 20

App. 7
minutes and then conducted breathalyzer testing. Ms.
Barnett provided two breath samples, both of which
registered 0.000 for alcohol. Mr. Betham testified at his
deposition that after observing Ms. Barnett, he did not
see any signs that she was impaired by drugs. He nevertheless obtained a urine sample from Ms. Barnett at
Deputy MacArthur’s request. The urine test results,
which came back around four weeks later, confirmed
that Ms. Barnett did not have any drugs in her system.
Even though the breathalyzer tests established
that Ms. Barnett was not intoxicated, she was required
to remain at the jail for eight hours from the time of
her arrest pursuant to the “hold policy” of the Seminole
County Sheriff ’s Office. Mr. Betham testified that under this policy, even if a DUI arrestee’s breathalyzer
test results are 0.000, and even if there is no indication
that the arrestee is under the influence of drugs, she
still must wait eight hours from the time of the arrest
to be released—even if she posts bond.
Shane Love, the Captain of Operations at the Jail,
confirmed at his deposition that it is the policy of the
Seminole County Sheriff ’s Office to detain DUI arrestees for at least eight hours, even if their breathalyzer test results are 0.000. Deputy MacArthur
similarly testified that once she arrested Ms. Barnett,
she was going to have to stay in jail for eight hours
pursuant to this policy.
In accordance with the hold policy, Ms. Barnett’s
jail arrest card stated that she was arrested at 4:10
a.m. and noted that she “can go at 12:10”—eight hours

App. 8
later. D.E. 64-17. Ms. Barnett ultimately was released
a little over eight hours from the time of her arrest, at
1:13 p.m., despite having posted bond at 10:58 a.m.
II
Ms. Barnett challenges the district court’s grant
of summary judgment in favor of the Sheriff on her
§ 1983 detention claim under Monell. She argues that
she was unlawfully detained pursuant to the Sheriff ’s
hold policy, which violates the Fourth Amendment because it requires continued detention even where, as
here, there is no probable cause for such detention. Exercising plenary review, see, e.g., Ft. Lauderdale Food
Not Bombs v. City of Ft. Lauderdale, 901 F.3d 1235,
1239 (11th Cir. 2018), and viewing the evidence in the
light most favorable to Ms. Barnett, see, e.g., Scott v.
Harris, 550 U.S. 372, 378 (2007), we agree with her
that the district court should not have entered summary judgment in favor of the Sheriff on her detention
claim.3
A
The detention claim against the Sheriff in his official capacity is in effect a claim against Seminole
3

Ms. Barnett does not (and cannot) argue that she was arrested as a result of the Sheriff ’s hold policy. She asserts only that
she was unlawfully detained based on the policy. So, for purposes
of our discussion on the Monell claim, we assume without deciding at the summary judgment stage that Deputy MacArthur had
probable cause to arrest Ms. Barnett.

App. 9
County. See Monell, 436 U.S. at 690 n.55 (explaining
that “official capacity suits generally represent only
another way of pleading an action against an entity of
which an officer is an agent”). A municipality can be
sued directly under § 1983 when one of its customs,
practices, or policies causes a constitutional injury. See
id. at 690. The plaintiff must demonstrate, however,
that the municipality was the “moving force” behind
the injury. See Bd. of Cty. Comm’rs of Bryan Cty., Okla.
v. Brown, 520 U.S. 397, 404 (1997). As we explain, Ms.
Barnett presented sufficient evidence that she was unconstitutionally detained as a result of the Sheriff ’s
hold policy to survive summary judgment.
The Fourth Amendment, in relevant part, protects
“[t]he right of the people to be secure in their persons
. . . against unreasonable searches and seizures.” U.S.
Const. amend. IV. One of the Amendment’s protections
is the right to be free from arrest without probable
cause. See Kingsland v. City of Miami, 382 F.3d 1220,
1232 (11th Cir. 2004) (“Plainly, an arrest without probable cause violates the right to be free from an unreasonable search under the Fourth Amendment.”)
(citation and internal quotation marks omitted).
Probable cause exists when “an arrest is objectively reasonable based on the totality of the circumstances.” Id. “This standard is met when the facts and
circumstances within the officer’s knowledge, of which
he or she has reasonably trustworthy information,
would cause a prudent person to believe, under the
circumstances shown, that the suspect has committed,
is committing, or is about to commit an offense.” Id.

App. 10
(citation and internal quotation marks omitted).
Stated differently, probable cause to arrest “requires
only a probability or substantial chance of criminal activity, not an actual showing of such activity.” D.C. v.
Wesby, 138 S. Ct. 577, 586 (2018) (citation and internal
quotation marks omitted). An officer’s “on-the-scene
assessment of probable cause provides legal justification for arresting a person suspected of crime, and for
a brief period of detention to take the administrative
steps incident to arrest.” Gerstein v. Pugh, 420 U.S. 103,
113–14 (1975). As we have noted, we assume for summary judgment purposes that Deputy MacArthur had
probable cause to arrest Ms. Barnett.
But probable cause to make a warrantless arrest
is not the end of the matter, for “[d]etention [in jail] . . .
is a type of seizure of the person to which Fourth
Amendment protections attach.” Alcocer v. Mills, 906
F.3d 944, 953 (11th Cir. 2018). Just as “probable cause
may cease to exist after a warrant is issued,” United
States v. Grubbs, 547 U.S. 90, 95 n.2 (2006), it may also
dissipate after an officer makes a warrantless arrest.
See, e.g., BeVier v. Hucal, 806 F.2d 123, 128 (7th Cir.
1986) (“The continuation of even a lawful arrest violates the Fourth Amendment when the police discover
additional facts dissipating their earlier probable
cause.”); McConney v. City of Houston, 863 F.2d 1180,
1185 (5th Cir. 1989) (“[O]nce a responsible officer actually does ascertain beyond a reasonable doubt that
one who has been so arrested is not intoxicated, the
arrestee should be released.”); Nicholson v. City of
Los Angeles, 935 F.3d 685, 691 (9th Cir. 2019) (“It is

App. 11
well-established that a person may not be arrested, or
must be released from arrest, if previously established
probable cause has dissipated.”) (citation and internal
quotation marks omitted); 3 Wayne R. LaFave, Search
and Seizure: A Treatise on the Fourth Amendment
§ 5.3(d) (5th ed. 2012) (“Even if a particular arrest was
lawfully made upon probable cause to believe that the
person arrested had committed an offense, additional
information coming to the attention of the police after
the arrest may establish an absence of probable cause,
in which case the arrested person is entitled to be released.”). Cf. Thompson v. Olson, 798 F.2d 552, 556 (1st
Cir. 1986) (addressing false imprisonment claim under
Maine law: “following a legal warrantless arrest based
on probable cause, an affirmative duty to release arises
only if the arresting officer ascertains beyond a reasonable doubt that the suspicion (probable cause) which
forms the basis for the privilege to arrest is unfounded”).
B
It is undisputed that the Sheriff ’s hold policy
mandates an eight-hour detention of a person like Ms.
Barnett who is charged with a DUI—even if her
breathalyzer test results show that her blood alcohol
content is .000 and even if she posts bond. The summary judgment evidence in the district court (including the testimony of Mr. Betham and Captain Love)
makes that clear, and the Sheriff concedes the point in
his brief. See Answer Br. at 20–28.

App. 12
In granting summary judgment in favor of the
Sheriff, the district court reasoned that the hold policy
is consistent with Florida Statute § 316.193(9), which
allows the option of holding a person for eight hours
after a DUI arrest. See D.E. 111 at 18. This constituted
error for two independent reasons. First, unlike the
hold policy, § 316.193(9) does not mandate the blanket
eight-hour detention of all DUI arrestees. Second, even
if it did, the statute could be unconstitutional as applied to Ms. Barnett through the Sheriff ’s hold policy.
The language of § 316.193(9) is as follows:
A person who is arrested for a violation of this
section may not be released from custody:
(a) Until the person is no longer under the
influence of alcoholic beverages, any
chemical substance set forth in s. 877.111,
or any substance controlled under chapter 893 and affected to the extent that his
or her normal faculties are impaired;
(b) Until the person’s blood-alcohol level or
breath-alcohol level is less than 0.05; or
(c) Until 8 hours have elapsed from the time
the person was arrested.
(emphasis added). Subsections (a), (b), and (c) are separated by an “or,” and that word is “almost always
disjunctive[.]” United States v. Woods, 571 U.S. 31, 45
(2019). So, as we explained in Deputy MacArthur’s interlocutory appeal, “[§] 316.193 simply requires one of
three conditions to be met to ensure sobriety prior to
releasing a DUI arrestee, one of which is an eight

App. 13
hours lapse from the time of arrest and one of which is
a blood-alcohol level below 0.05.” Barnett, 715 F. App’x
at 908. Unlike the Sheriff ’s hold policy, pursuant to
which officers are required to detain DUI arrestees
for eight hours, § 316.193 gives officers discretion in
determining when to release a DUI arrestee and allows for three release options (only one of which is an
eight-hour hold). See id. “When an officer exercises this
discretion under Florida law, the Constitution requires
her to exercise her discretion in a way that does not
violate a person’s Fourth Amendment rights.” Id.
But even if the Sheriff ’s hold policy were consistent with (or mandated by) § 316.193, the existence
of a state statute does not answer the federal constitutional question. It has long been understood that a
state law must conform to the Constitution, and if it
does not do so it must yield. See, e.g., M’Culloch v.
Maryland, 17 U.S. 316, 361 (1819) (explaining that,
due to the Supremacy Clause, “the states are prohibited from passing any acts which shall be repugnant to
a law of the United States”). The same goes for a municipal ordinance or policy. See, e.g., Cty. of Riverside v.
McLaughlin, 500 U.S. 44, 58–59 (1991) (holding that a
county policy which provided for probable cause determinations within two days of a warrantless arrest, exclusive of weekends and holidays, was inconsistent
with the Fourth Amendment). So, the fact that
§ 316.193 permits holding a DUI arrestee for up to
eight hours does not immunize the Sheriff ’s hold policy, as applied to Ms. Barnett, from constitutional scrutiny. See Cooper v. Dillon, 403 F.3d 1208, 1222–23 (11th

App. 14
Cir. 2005) (holding that a city could be liable for enforcing an unconstitutional policy, even though the policy
was consistent with a Florida statute, because the statute itself was unconstitutional). See also Christensen v.
Park City Mun. Corp., 554 F.3d 1271, 1278–80 (10th
Cir. 2009) (holding that a municipality can be held liable under Monell if its ordinance is applied unconstitutionally); Amnesty America v. Town of West Hartford,
361 F.3d 113, 125–26 (2d Cir. 2004) (same).4
On this record, Ms. Barnett’s detention claim
against the Sheriff must be decided by a jury. Viewing
the evidence in the light most favorable to her, Ms.
Barnett was kept in custody pursuant to (and because
of ) the Sheriff ’s mandatory eight-hour hold policy after her two breathalyzer test results registered bloodalcohol readings of 0.000 and after she posted bond.
The only remaining question then, is whether a reasonable jury could find that the hold policy, as applied
to Ms. Barnett, violated her Fourth Amendment rights.
On this issue, we are persuaded by the Fifth Circuit’s
opinion in McConney.
In McConney, the plaintiff claimed that after being arrested for public intoxication, he was unlawfully
detained pursuant to a city policy requiring anyone
who was arrested on such a charge to be held for four
hours, even after the officers learned that he was not
4

The Sheriff cannot assert qualified immunity because he
is being sued in his official capacity under a municipal liability
theory. See Owen v. City of Indep., 445 U.S. 622, 638 (1980) (holding
that a “municipality may not assert the good faith of its officers
or agents as a defense to liability under § 1983”).

App. 15
intoxicated. See 863 F.2d at 1185. The Fifth Circuit affirmed the district court’s entry of judgment against
the city in accordance with the jury’s verdict. See id. at
1188. It explained that “a person may constitutionally
be detained for at least four or five hours following a
lawful warrantless arrest for public intoxication without the responsible officers having any affirmative
duty during that time to inquire as to whether the
person is intoxicated, even if requested to do so.” Id. at
1185. But, the Fifth Circuit cautioned, “once a responsible officer actually does ascertain beyond a reasonable doubt that one who has been so arrested is in fact
not intoxicated, the arrestee should be released.” Id.
The Fifth Circuit based its decision in part on a First
Circuit state-law false imprisonment case involving
suspected intoxication, which had adopted this same
standard from the Restatement (Second) of Torts
§ 134, comment f. See id. (citing Thompson, 798 F.2d at
556).
We agree with the Fifth Circuit. Following a warrantless DUI arrest based on probable cause, officers
do not have an affirmative Fourth Amendment duty
to investigate or continually reassess whether the arrestee is or remains intoxicated while in custody. But
where, as here, the officers seek and obtain information which shows beyond a reasonable doubt that
the arrestee is not intoxicated—in other words, that
probable cause to detain no longer exists—the Fourth
Amendment requires that the arrestee be released.
Here, as in McConney, a reasonable jury viewing the
evidence in the light most favorable to Ms. Barnett

App. 16
could find that her continued detention pursuant to the
Sheriff ’s eight-hour hold policy violated the Fourth
Amendment.5
First, a jury could find that the officers at the Seminole County Jail obtained information showing beyond
a reasonable doubt that there was no longer probable
cause to continue holding Ms. Barnett. Her two breathalyzer test results resulted in blood-alcohol readings
of 0.000, which indicated that she had no alcohol whatsoever in her system. And Deputy MacArthur and
Mr. Betham admitted there was no evidence that Ms.
Barnett—who did not smell of marijuana or slur her
words—was under the influence of drugs.
Second, a jury could easily find that the Sheriff ’s
hold policy was the “moving force” behind the Fourth
Amendment violation (i.e., Ms. Barnett’s continued detention). See Brown, 520 U.S. at 404. Ms. Barnett’s jail
arrest card stated that she “can go at 12:10,” eight
hours after her arrest, which is consistent with the
mandatory hold policy. Mr. Betham and Captain Love
testified that DUI arrestees are detained for eight
hours under the hold policy. And, Mr. Betham told Ms.
Barnett that although there was nothing in her system, she had to stay in custody for eight hours.
One of our own cases supports the conclusion we
reach. In Alcocer v. Mills, we held under the Fourth
Amendment that officials could not continue to hold a
5

Our holding does not mean that the hold policy is categorically unconstitutional. That is a question we do not and need not
decide.

App. 17
person arrested for driving on a suspended license after she posted bond unless they could “show they had
probable cause” to believe she had committed another
offense. See Alcocer, 906 F.3d at 953–54 (“Any facts
that might have underpinned the conclusion that [the
plaintiff ] was in the United States illegally were not a
part of the probable cause that supported [her] original
detention, which was for the misdemeanor of driving
with a suspended license. For this reason, independent
probable cause was required to warrant [the plaintiff ’s] continued detention after she had satisfied all
conditions of her bond on her original detention.”).
Alcocer is consistent with our conclusion that where
police have no probable cause to detain an arrestee, the
arrestee must be released.6
C
The Sixth Circuit has rejected the argument
that “[w]hen subsequent developments disprove the
correctness of a previous police determination that
probable cause exists, . . . the police no longer have
6

In State v. Atkinson, 755 So. 2d 842, 845 (Fla. 5th DCA
2000), Florida’s Fifth District Court of Appeal held that
§ 316.193(9) “is not unconstitutional in allowing temporary detention of an apparently drunk driver, nor does such detention give
rise to any viable claim of double jeopardy by the detainee at any
subsequent criminal trial.” We have considered Atkinson, but conclude that it is distinguishable because in that case the arrestees,
unlike Ms. Barnett, had “refused a breath test or were measured
as having an unlawful alcohol level.” Id. at 843. There was, in
other words, no evidence in Atkinson demonstrating beyond a
reasonable doubt that the arrestees were not intoxicated.

App. 18
justification under the Fourth Amendment to continue
the incarceration, and must release the suspect.” Peet
v. City of Detroit, 502 F.3d 557, 565 (6th Cir. 2007). We
choose not to follow Peet for two reasons.
First, the Sixth Circuit incorrectly suggested that
there were no cases or authorities supporting the
Fourth Amendment proposition it rejected. See id.
When Peet was decided in 2007, however, the Fifth and
Seventh Circuits had already held under the Fourth
Amendment that a person must be released from custody if the probable cause that existed for her arrest
has dissipated. See BeVier, 806 F.2d at 128; McConney,
863 F.2d at 1185. For some reason, the Sixth Circuit
did not acknowledge, consider, or discuss those decisions.
Second, the Sixth Circuit was concerned that investigators would have an affirmative duty to re-evaluate
the matter of probable cause with every new piece of
information or evidence they received. See id. The
Fourth Amendment standard we announce, borrowed
from the McConney decision of the Fifth Circuit, does
not place on police officers an affirmative and independent duty to further investigate in order to continually reassess the matter of probable cause in
warrantless arrest cases. It only requires that the officers release an arrestee if evidence they obtain
demonstrates beyond a reasonable doubt that there
is no longer probable cause for the detention. That
standard, we believe, properly balances the competing
liberty interests and law enforcement concerns and remains faithful to the Fourth Amendment’s textual

App. 19
command that seizures and detentions be reasonable.
See Riley v. California, 573 U.S. 373, 381 (2014) (“As
the text makes clear, the ultimate touchstone of the
Fourth Amendment is reasonableness.”) (citation and
internal quotation marks omitted).7
D
One final matter warrants discussion. The Sheriff
contends that he cannot be liable under Monell because the jury found in favor of Deputy MacArthur on
the individual Fourth Amendment detention claim
against her. As the Sheriff sees things, the jury verdict
means that there was no Fourth Amendment violation,
and without a Fourth Amendment violation there cannot be municipal liability under Monell. See Answer Br.
at 17–20.
The syllogism is superficially seductive, but on
this record it does not work. It is true, as the Sheriff
says, that “an inquiry into a governmental entity’s custom or policy is relevant only when a constitutional
deprivation has occurred.” Rooney v. Watson, 101 F.3d
1378, 1381 (11th Cir. 1996). But the problem for the
Sheriff is that the jury verdict in favor of Deputy MacArthur does not constitute a finding that Ms. Barnett

7

We express no view on what the Fourth Amendment may
or may not require when an arrest is made pursuant to a valid
warrant and the arrestee claims that new evidence has caused
probable cause to dissipate. For one case addressing such a scenario, see Brady v. Dill, 187 F.3d 104, 111 (1st Cir. 1999).

App. 20
suffered no Fourth Amendment violation as a result of
the detention.
We have held that “Monell . . . and its progeny do
not require that a jury must first find an individual defendant liable before imposing liability on local government.” Anderson v. City of Atlanta, 778 F.2d 678, 686
(11th Cir. 1985). For example, municipal liability can
exist if a jury finds that a constitutional injury is due
to a municipal policy, custom, or practice, but also finds
that no officer is individually liable for the violation.
See id. (“[I]f the jury were to find, as it did, that the
deprivation of Mr. Anderson’s constitutional rights was
a result of understaffing, then it would logically find no
fault on the part of the individual arresting officers.”).
This is not a controversial concept, as many of our
sister circuits have come to the same conclusion. See
Garcia v. Salt Lake Cty., 768 F.2d 303, 310 (10th Cir.
1985) (“Monell does not require that a jury find an individual defendant liable before it can find a local governmental body liable [under § 1983]. . . . Although the
acts and omissions of no one employee may violate an
individual’s constitutional rights, the combined acts or
omissions of several employees acting under a governmental policy or custom may violate an individual’s
constitutional rights.”); Fagan v. City of Vineland, 22
F.3d 1283, 1292 (3d Cir. 1994) (en banc) (“We hold that
in a substantive due process case arising out of a police
pursuit, an underlying constitutional tort can still exist even if no individual police officer violated the Constitution. . . . A finding of municipal liability does not
depend automatically or necessarily on the liability of

App. 21
any police officer.”); Barrett v. Orange Cty. Human
Rights Comm’n, 194 F.3d 341, 350 (2d Cir. 1999) (“We
agree with our sister circuits that under Monell municipal liability for constitutional injuries may be
found to exist even in the absence of individual liability, at least so long as the injuries complained of are
not solely attributable to the actions of named individual defendants.”); Speer v. City of Wynne, 276 F.3d 980,
985–86 (8th Cir. 2002) (“Our court has . . . rejected the
argument that . . . there must be a finding that a municipal employee is liable in his individual capacity as
a predicate to municipal liability. . . . [S]ituations may
arise where the combined actions of multiple officials
or employees may give rise to a constitutional violation, supporting municipal liability, but where no one
individual’s actions are sufficient to establish personal
liability for the violation.”); Fairley v. Luman, 281 F.3d
913, 917 (9th Cir. 2002) (“If a plaintiff establishes that
he suffered a constitutional injury by the City, the fact
that individual officers are exonerated is immaterial to
liability under § 1983.”); Thomas v. Cook Cty. Sheriff ’s
Dep’t, 604 F.3d 293, 305 (7th Cir. 2010) (“[A] municipality can be held liable under Monell, even when its officers are not, unless such a finding would create an
inconsistent verdict.”). So has a leading treatise on
§ 1983. See Sheldon Nahmod, Civil Rights and Civil
Liberties Litigation: The Law of Section 1983 § 6:13 at
6–49 (2019 ed.) (“[A]s a general matter a local government can be independently liable for its own unconstitutional policy or custom which caused harm to a
plaintiff, even if its officials or employees did not

App. 22
themselves violate the plaintiff ’s constitutional rights
in the course of implementing that policy or custom.”).8
Where, as here, a jury has returned a verdict in
favor of an individual defendant on a § 1983 claim, the
question is whether that verdict “can be harmonized
with a concomitant verdict or decision imposing liability on the municipal entity. The outcome of the inquiry
depends on the nature of the constitutional violation
alleged, the theory of municipal liability asserted by
the plaintiff, and the defenses set forth by individual
actors.” Speer, 276 F.3d at 986. Accord Thomas, 604
F.3d at 305. We conclude that the jury verdict in favor
of Deputy MacArthur does not preclude a finding of
municipal liability due to the Sheriff ’s mandatory
eight-hour hold policy.
At trial, there was no evidence that Deputy MacArthur had any discretion or role in keeping Ms.
Barnett in custody after arresting her and taking her
to the Jail. Indeed, Captain Love testified that Deputy
MacArthur turned Ms. Barnett over to the staff at
the Jail, and he confirmed that deputies had no discretion to release DUI arrestees before eight hours had

8

The same holds true when an individual defendant is protected from § 1983 liability by qualified immunity. In that situation, the municipality is not necessarily absolved of liability. See,
e.g., Horton v. City of Santa Maria, 915 F.3d 592, 604 (9th Cir.
2019); Int’l Ground Transp. v. Mayor & City Council of Ocean
City, 475 F.3d 214, 219–20 (4th Cir. 2007) (plurality opinion);
Nahmod, Civil Rights and Civil Liberties Litigation § 6:13 at 6–
46.

App. 23
passed. See D.E. 175 at 156–57. Mr. Betham testified
that the Jail’s booking staff—not Deputy MacArthur—
wrote on Ms. Barnett’s jail arrest card that she could
be released at 12:10 (eight hours after she arrived),
consistent with the Jail’s policy that when an individual is arrested for impaired driving, she must be held
for eight hours. See D.E. 179 at 38; D.E. 167-18. Ms.
Barnett similarly testified that after her breath test
results were negative, Mr. Betham told her that she
had to stay at the Jail for eight hours anyway. See D.E.
181 at 123. Deputy MacArthur confirmed that even if
Ms. Barnett posted bond before the end of the eighthour period, she would have to stay at the Jail for eight
hours. See D.E. 179 at 251.
Given this evidence, defense counsel told the jury
in closing argument that Deputy MacArthur could not
be held liable on the Fourth Amendment detention
claim because the undisputed evidence showed that
Ms. Barnett was kept in custody pursuant to the Sheriff ’s mandatory hold policy, a policy that Deputy MacArthur had no discretion to deviate from:
The other thing . . . as to the stay at the jail,
the testimony has been—and I don’t recall
any conflict on it—that it was the policy of the
Sheriff that, if somebody’s arrested for DUI,
driving under the influence, they’re brought to
the jail; they’re going to be there for eight
hours. So that wasn’t Deputy MacArthur’s decision that Ms. Barnett was continued to be
detained at the jail. That was the policy of the

App. 24
Sheriff and . . . she didn’t do anything wrong
in terms of that.
D.E. 181 at 252.
The district court instructed the jury that, on the
individual detention claim against Deputy MacArthur,
Ms. Barnett had to show that Deputy MacArthur “intentionally committed acts that violated [her] constitutional right not to be arrested or detained without
probable cause.” D.E. 165 at 30. When the jury asked
whether Ms. Barnett could have been released after
her 0.000 breathalyzer test results, the district court
declined to answer that question. See D.E. 183 at 21–
23. So the jury was not asked to determine whether,
as a general matter, Ms. Barnett suffered a Fourth
Amendment violation due to the hold policy.
Because the jury found only that Deputy MacArthur had not “intentionally committed acts that violated [Ms.] Barnett’s Fourth Amendment right . . . not
to be arrested or detained without probable cause,”
DE. 169 at 1 (verdict form), its verdict says nothing
about whether the continued detention of Ms. Barnett—
after her breathalyzer tests and after posting bond—
due to the Sheriff ’s hold policy violated the Fourth
Amendment. Stated differently, the jury was asked to
decide only whether Deputy MacArthur was personally responsible (due to “intentionally committed
acts”) for any Fourth Amendment violations, and not
whether Ms. Barnett suffered a Fourth Amendment
violation due to her continued detention. Under the
circumstances—including the evidence presented, the

App. 25
defense theory, the jury instructions, and the verdict
form—the jury’s verdict in favor of Deputy MacArthur
does not insulate the Sheriff from a § 1983 claim under
Monell for Ms. Barnett’s continued detention pursuant
to the eight-hour mandatory hold policy.
III
We reverse the district court’s grant of summary
judgment on Ms. Barnett’s Fourth Amendment detention claim against the Sheriff under Monell and remand for a trial on that claim. In all other respects, we
affirm.
AFFIRMED IN PART, REVERSED IN PART,
AND REMANDED.

App. 26
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
SEANA BARNETT,
Plaintiff,
v.
SARA MACARTHUR and
DONALD ESLINGER,

Case No:
6:15-cv-469-Orl-18DCI

Defendants.
ORDER
(Filed Nov. 16, 2016)
THIS CAUSE comes for consideration on Defendants Sara MacArthur (“MacArthur”) and Donald
Eslinger’s (“Eslinger”) (collectively, the “Defendants”)
Motion for Summary Judgment (the “Motion”) (Doc.
76) to which Plaintiff Seana Barnett (“Barnett”) responded in opposition (Doc. 92), and Defendants replied (Doc. 97). For the reasons that follow, the Motion
will be granted in part and denied part.

App. 27
I.

BACKGROUND1

On March 15, 2014, Barnett went to dinner around
6:00 p.m. with her friend, Alicia Norwood (“Norwood”)
in downtown Orlando. (Barnett Deposition, Doc. 77
at 68:8-24, 70:4-6.) After spending several hours at
dinner, Barnett and Norwood walked around downtown Orlando. (Id. at 73:2-5.) Barnett drank some wine
at dinner and, a few hours later, she drank a minimal
amount of Bailey’s Irish Cream.2 (Barnett Dep. at
70:25-71:13.) Barnett was the designated driver for
Norwood, and she undertook the task of driving both
herself and Norwood home from downtown Orlando
in Norwood’s vehicle (the “Vehicle”). (Id. at 72:6, 74:1420.) During the drive home, Barnett stopped the Vehicle at a green light on Lake Mary Boulevard. (Id. at
75:15- 20, 76:19-21.) When Barnett stopped the Vehicle
at the green light in “the left straight through lane,”
MacArthur was stopped at the intersection waiting
to turn onto Lake Mary Boulevard. (MacArthur Dep.
at 44:18-45:21.) MacArthur testified that she observed
1

Defendants provided the Court with a DVD of video and
audio recordings from MacArthur’s patrol car dash camera and
from the rear sear of MacArthur’s patrol car. (See Doc. 27.) Defendants also provided the Court with audio files of Barnett’s jail
telephone calls. (See, Doc. 88.) Although the Court’s recitation of
the undisputed facts does not include citations to the DVDs, the
Court reviewed and considered the videos in the course of adjudicating the instant motion.
2
Immediately after Bartlett was placed under arrest, she
informed MacArthur that, hours prior, she drank Bailey’s Irish
Cream and wine. (MacArthur Deposition, Doc. 64 at 269:15270:5.) Prior to arresting Barnett, MacArthur did not know that
Barnett drank Bailey’s Irish Cream. (Id. at 270:13-18.)

App. 28
the Vehicle stopped at the green light for approximately eight to ten seconds. (Id. at 45:20-21.) At this
time, there were no vehicles or pedestrians in the roadway. (Id. at 104:25-105:6.) When the Vehicle passed by,
MacArthur activated her dashboard video camera and
pulled in behind the Vehicle. (Id. at 46:3-47:18.) After
Barnett turned the Vehicle left onto a side street, MacArthur initiated a traffic stop, and Barnett pulled the
Vehicle over in response. (Doc. 64-13 at 1.)
Soon after MacArthur stopped Barnett, Barnett
informed MacArthur that she drank a small amount of
wine around 6:00 p.m. the prior evening. (Barnett Dep.
at 82:8-12.) Barnett also provided her driver’s license
to MacArthur, but she was unable to provide registration and insurance despite being reminded twice and
fumbling with the button on the Vehicle’s glove compartment. (MacArthur Dep. at 107:8-15; Doc. 64-14 at
2.) Upon MacArthur’s request, Barnett agreed to perform field sobriety exercises. (Doc. 64-14 at 2.) Prior to
explaining and initiating the field sobriety testing,
MacArthur asked Barnett if she had any medical issues, to which Barnett responded she did not. (MacArthur Dep. at 165:15-166:7.) MacArthur subsequently
conducted a horizontal gaze nystagmus evaluation, a
walk and turn exercise, a one leg stand exercise, a finger to nose exercise, and a number counting exercise.
(Doc. 64-14 at 3.) MacArthur’s dashboard video captured audio and video for a portion of the field sobriety
exercises, although only audio is available for exercises
that took place outside of the camera’s view. (MacArthur Dep. at 107:16-108:7.) During the heel to toe

App. 29
exercise, Barnett informed MacArthur that she had
muscle tears in her legs due to injuries from a prior
accident and that she sees a chiropractor on a regular
basis. (Id. at 207:10-208:24) At the conclusion of the
field sobriety exercises, MacArthur conversed with
Joel Saslo (“Saslo”), another law enforcement officer on
the scene; however, MacArthur turned off the audio,
and the majority of their conversation is not audible.
(Id. at 262:7-268:23.) After approximately four (4)
minutes of unrecorded conversation between MacArthur and Saslo, the audio returns and MacArthur
began arresting Barnett. (See id.)
Subsequently, MacArthur transported Barnett to
the Seminole County jail, where Barnett was processed
and given a breathalyzer test. (Barnett Dep. at 96:715.) Barnett provided two (2) breath samples, both of
which tested negative (.000) for alcohol. (Doc. 64-14 at
4; Doc. 654.) The breath tests was administered by DUI
technician, Keith Betham (“Betham”), who observed
that he could smell a “moderate” amount of alcohol on
Barnett’s breath and that her eyes were “glassy, bloodshot and watery.” (Betham Deposition, Doe. 65 at 91:217.) Betham also observed that Barnett’s pupils were
normal, she did not act unusual, and he could understand her speech. (Id. at 91;18-92:3.) Thereafter, upon
request, Barnett provided a urine sample for drug
testing and was informed that it would take several
months for the results of the urine test to come back.
(Barnett Dep. at 98:1-13.) After providing a urine
sample, Barnett was processed as an inmate, finger
printed, and instructed to undress and take a shower.

App. 30
(Id. at 98:15-17.) At the time, Barnett was menstruating and had to remove her sanitary napkin. (Id. at
98;17-18.) During the course of her jail stay, Barnett
was put in two (2) different jail cells with numerous
female inmates, some of whom purportedly ridiculed
and harassed her. (Id. at 99:7-16, 100:8-101:18.)
Shortly after 1:00 p.m. on March 16, 2014, Barnett
posted bond and was released from jail. (Id. at 102:715; Love Deposition, Doc. 79 at 47:16-21.)
MacArthur copied Barnett’s offense and arrest report, as well as her DUI citation, which were scanned
and forwarded to the state attorney. (See MacArthur
Dep. at 93:5-6.) On or about April 15, 2014, the results
of Barnett’s urine testing were produced. (See Doc. 6613 at 1.) As reflected on the Florida Department of Law
Enforcement’s laboratory report, Barnett’s urine was
specifically analyzed for amphetamines, barbiturates,
benzodiazepines, cannabinoids, carisoprodol, cocaine,
methadone, opiates, and oxycodone. (Id.) Indisputably,
no drugs were identified as being in Barnett’s system
via the urine testing. (Id.) Barnett was arraigned on
April 16, 2014, and a nolle prosequi was entered on
May 2, 2014. (Doc. 82-1 at 1-2.)
MacArthur did not smell alcoholic beverages or
marijuana on Barnett at any time prior to the arrest,
nor did MacArthur observe any evidence of illegal
drugs. (MacArthur Dep. at 76:2377:5). Both MacArthur
and Saslo looked in Barnett’s purse to locate her cellular telephone, and MacArthur did not see any kind of
drugs in Barnett’s purse. (Id. at 273:19-24.) MacArthur
did not search the Vehicle and testified that she did

App. 31
not feel there was a reason to search the Vehicle. (Id.
at 68:6-11.) Additionally, Barnett did not slur her
speech or have any indication from the way she spoke
that she was impaired. (Id. at 77:6-10.) Barnett also
didn’t stumble around or lose her balance getting out
of the Vehicle. (Id. at 77:11-14.) Barnett assisted Saslo
“in putting down an orange tapeline on the ground
with no apparent difficulty.” (Id. at 256:12-17.) MacArthur testified that Barnett’s adeptness at assisting
with the orange tape could be a clue that Barnett was
not impaired but that she did not consider this when
deciding to arrest Barnett. (Id. at 256:12-257:11.)
On October 16, 2015, Barnett filed her eight (8)
count Amended Complaint (Doc. 50) against Defendants in this case, wherein Barnett asserts federal and
state law claims against MacArthur in her individual
capacity and federal and state law claims against
Eslinger in his official capacity as Sheriff of Seminole
County, Florida. (See id. 1116-7.) Defendants now move
for summary judgment on all of Barnett’s claims. (Doc.
76.)
II.

LEGAL STANDARD

A court may grant summary judgment “if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). Material facts
are those that may affect the outcome of the case under the applicable substantive law. Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). Disputed issues

App. 32
of material fact preclude the entry of summary judgment, but factual disputes that are irrelevant or unnecessary do not. Id. “[S]ummary judgment will not lie
if the dispute about a material fact is ‘genuine,’ that is,
if the evidence is such that a reasonable jury could return a verdict for the nonmoving party.” Id.
In determining whether the moving party has satisfied its burden, the Court considers all inferences
drawn from the underlying facts in a light most favorable to the party opposing the motion and resolves all
reasonable doubts against the moving party. Matsushita Elec. Ind. Co. v. Zenith Radio Corp., 475 U.S. 574,
587-88 (1986). The moving party may rely solely on the
pleadings to satisfy its burden. Celotex Corp. v. Catrett,
477 U.S. 317, 323-24 (1986). A nonmoving party bearing the burden of proof, however, must go beyond the
pleadings and submit affidavits, depositions, answers
to interrogatories, or admissions that designate specific facts indicating there is a genuine issue for trial.
Id. at 324. If the evidence offered by the non-moving
party “is merely colorable, or is not significantly probative,” the Court may grant summary judgment. Anderson, 477 U.S. at 249-50. Similarly, summary judgment
is mandated against a party who fails to prove an essential element of its case “with respect to which [the
party] has the burden of proof.” Celotex, 477 U.S. at
323.

App. 33
III.

ANALYSIS

A. Federal Claims against MacArthur: Count I,
Count VII
1. Qualified Immunity Standard
Pursuant to the doctrine of qualified immunity,
government officials performing discretionary functions are shielded from suits in their individual capacities, except when “their conduct violates ‘clearly
established statutory or constitutional rights of which
a reasonable person would have known.’ ” Andujar v.
Rodriguez, 486 F.3d 1199, 1202 (11th Cir. 2007) (quoting Dalrymple v. Reno, 334 F.3d 991, 994 (11th Cir.
2003)). In order to be eligible for qualified immunity, a
law enforcement officer must prove that he or she was
acting within the scope of his discretionary duties
when the alleged wrong occurred, Hawthorne v. Sheriff
of Broward Cnty., 212 F. App’x 943, 946 (11th Cir.
2007). A government official’s actions are within his
discretionary authority when “ ‘undertaken pursuant
to the performance of his duties and within the scope
of his authority.’ ” Rich v, Dollar, 841 F.2d 1558,1564
(11th Cir. 1988) (quoting Barker v. Norman, 651 F.2d
1107, 1121 (5th Cir. July 1981), and Douthit v. Jones,
619 F.2d 527, 534 (5th Cir. 1980)). If a law enforcement
officer was acting within the scope of his or her discretionary authority, the burden then shifts to the plaintiff to establish that the law enforcement officer
violated a constitutional right that was clearly established at the time of the misconduct. Pearson v. Callahan,
555 U.S. 223, 232 (2009); Holloman ex rel. Holloman v.
Harland, 370 F.3d 1252, 1263-64 (11th Cir. 2004), A

App. 34
plaintiff can show a right is clearly established
through “(1) [presenting] case law with indistinguishable facts clearly establishing the constitutional right;
(2) a broad statement of principle within the Constitution, statute, or case law that clearly establishes a constitutional right; or (3) conduct so egregious that a
constitutional right was clearly violated, even in the
total absence of case law.” Lewis v. City of W. Palm
Beach, Fla., 561 F.3d 1288, 1291-92 (11th Cir. 2009)
(citations omitted). A constitutional right is clearly established if it is “ ‘sufficiently clear that a reasonable
official would understand that what he is doing violates that right.’ ” Hope v. Pelzer, 536 U.S. 730, 739
(2002) (quoting Anderson v. Creighton, 483 U.S. 635,
640 (1987)); Saucier v. Katz, 533 U.S. 194, 202 (2001)
(“The relevant, dispositive inquiry in determining
whether a [constitutional] right is clearly established
is whether it would be clear to a reasonable officer
that his conduct was unlawful in the situation he confronted.”).
2. Count I: 42 U.S.C. § 1983 Claim against MacArthur
for Arrest and Continued Detention
In Count 1, Barnett brings a 42 U.S.C. § 1983
claim against MacArthur for MacArthur’s arrest and
continued detention of Barnett. (Doc. 50 ¶¶ 63-77.)
Purportedly, “MacArthur’s conduct violated [Barnett’s]
clearly established rights under the Fourth Amendment to the United States Constitution to be free from
involuntary detention in the absence of probable cause
and under the Fourteenth Amendment to the United

App. 35
States Constitution to be free from involuntary detention without due process of law.” (Id. ¶ 74.) Barnett
states that “MacArthur acted intentionally and with
malice and/or reckless indifference to [Barnett’s] federally protected rights.” (Id. ¶ 75.) MacArthur argues
that she is entitled to qualified immunity because
there was arguable probable cause for Barnett’s arrest
and continued detention at the jail after administration of the breathalyzer test and acquisition of a urine
sample from Barnett. (Doc. 76 at 2.) MacArthur further
avers that summary judgment in her favor is appropriate because actual probable cause existed for Barnett’s
arrest and continued detention. (Id. at 2-3.)
a. Barnett’s § 1983 Arrest Claim
“A warrantless arrest without probable cause violates the Fourth Amendment and provides the basis for
a § 1983 claim.” Holt v. U.S. Atty. Gen., 486 F. App’x 97,
99 (11th Cir. 2012) (citing Marx v. Gumbinner, 905 F.2d
1503, 1505 (11th Cir. 1990)). Under both federal and
Florida law, a law enforcement officer has probable
cause to arrest somebody when, under the totality of
the circumstances, “the facts and circumstances within
the officer’s knowledge, of which he or she has reasonably trustworthy information, would cause a prudent
person to believe, under the circumstances shown, that
the suspect has committed, is committing, or is about
to commit an offense.” Lee v. Ferraro, 284 F. 3d 1188,
1195 (11th Cir. 2002) (quotation marks and citation
omitted). If a law enforcement officer “fabricated or unreasonably disregarded certain pieces of evidence to

App. 36
establish probable cause or arguable probable cause
[for arrest,] . . . the question whether arguable probable cause for the arrest existed is aptly suited for a
jury.” Kingsland v. City of Miami, 382 F.3d 1220, 1233
(11th Cir. 2004).
Allegedly, Barnett’s erratic driving pattern, admittance to consumption of alcohol, and poor performance
on field sobriety exercises led MacArthur to conclude,
based on her training and experience, that Barnett was
operating the Vehicle with impaired normal faculties
in violation of Section 316.193(1), Florida Statutes.
(Doc. 64-14 at 3; see MacArthur Dep. at 44:4-45:21;
47:6-15, 52:22-23, 55:3-15, 57:2-20.) Barnett does not
seemingly dispute that she was driving under the
speed limit and, during a recorded jail telephone conversation with her son, Barnett admitted to falling
asleep while driving the Vehicle and swaying in the
road. (See Doc. 92 at 3.) Additionally, Barnett indisputably stopped the Vehicle at a greenlight in the middle
of the road during the early morning hours. Further,
Barnett admitted to drinking alcohol earlier the prior
evening and had difficulty retrieving the Vehicle’s insurance and registration upon MacArthur’s request. It
is also notable that Macarthur’s dashboard video
shows Barnett ask MacArthur to repeat instructions
for the field sobriety test exercises, and Barnett also
appears to sway at times and begin exercises prematurely.
Despite the presence of some material, undisputed
facts, genuine issues of material fact remain unresolved. The parties dispute whether Barnett’s eyes

App. 37
were bloodshot and whether Barnett was driving the
Vehicle erratically. Indisputably, however, there were
no vehicles travelling on the same roadway when the
Vehicle was stopped at the green light, and Barnett
began moving the Vehicle when other vehicles started
approaching. Also, although Barnett admits to falling
asleep and swaying while driving, there is no evidence
of when such actions took place and whether they occurred immediately before or during MacArthur’s efforts to initiate a traffic stop. Further, MacArthur
testified that Barnett moved the Vehicle “really far
over” and almost hit a mailbox in the course of pulling
the Vehicle over. (MacArthur Dep. at 55:3-10.) However, in contrast to MacArthur’s testimony, the video
evidence does not clearly show that Barnett moved the
Vehicle “really far over” and that she almost hit a mailbox when MacArthur was pulling her over. The video
evidence does show, however, that another vehicle was
approaching the Vehicle at the referenced time, and it
is thus conceivable that Barnett was simply being
cautious in her efforts to move the Vehicle out of the
approaching vehicle’s way. (See MacArthur Dep. at
55:11-15.) Otherwise, the video evidence does not show,
clearly and uncontrovertibly, that Barnett was driving
the Vehicle erratically as suggested by MacArthur.
Thus, whether Barnett’s driving presented an objectively reasonable basis for suspecting that she was under the influence is not sufficiently clear. See Nicholas
v. State, 857 So. 2d 980, 982 (Fla. 4th DCA 2003) (noting that “there is no statutory definition of erratic driving and it is necessarily determined on a case by case
basis” and holding there was no probable cause for the

App. 38
initial stop or the DUI arrest of plaintiff after plaintiff
turned from the wrong lane, where plaintiff was observed driving for a short period of time and did not
interfere with any traffic). Further, even if Barnett
performed poorly on portions of her field sobriety tests,
there are genuine disputes of material fact as to
whether MacArthur properly administered the field
sobriety tests and whether a reasonable law enforcement officer would have determined that Barnett
failed enough of the tests for purposes of effectuating
an arrest. (See Expert Reports at Does. 35-6, 81-1); see
Strickland v. City of Dothan, Ala., 399 F. Supp. 2d
1275, 1289 (M.D. Ala. 2005), aff ’d sub nom. Strickland
v. Summers, 210 F. App’x 983 (11th Cir. 2006) (“It is
not objectively reasonable to rely on a performance in
a field-sobriety test for a finding of probable cause for
a DUI arrest when the test has been administered incompetently.”). There is also a dispute as to the credence that should have been given to Barnett’s
professed medical conditions when assessing her performance on the field sobriety exercises.
MacArthur admits that there were no indicators
that Barnett was on drugs and that she did not have
probable cause to believe that Barnett was under the
influence of drugs or prescription medication. (MacArthur Dep. at 81:16-18, 104:6-12.) MacArthur further
testified that Barnett spoke clearly and did not stumble when she was getting out of the Vehicle or when
she was assisting Saslo with putting tape on the
ground. Also, there is no allegation or evidence that
MacArthur smelled alcohol on Barnett’s breath at any

App. 39
time prior, during, or after Barnett’s arrest. Additionally, although Barnett drank alcohol prior to driving,
she informed MacArthur that she drank a minimal
amount of alcohol many hours prior to her arrest and
walked around downtown Orlando for hours after
she drank. See Strickland, 399 F. Supp. 2d at 1287
(“[Plaintiff ’s] admission that he drank an alcoholic
beverage over four hours earlier does not indicate that
he was impaired at the time of the stop. . . .”). It is not
clear that MacArthur properly considered potentially
exculpatory evidence in determining whether probable
cause existed to arrest Barnett, through communicating with Norwood or questioning Barnett about her
medical conditions, for example. See Kingsland, 382
F.3d at 1228 (“[O]fficers should not be permitted to
turn a blind eye to exculpatory information that is
available to them, and instead support their actions on
selected facts they chose to focus upon. . . .”). Upon review of the entire record, and drawing all inferences
in favor of Barnett to the extent supportable by the
record and the law, the Court is not persuaded that
MacArthur is entitled to summary judgment based on
actual or arguable probable cause for Barnett’s arrest.
b. Barnett’s § 1983 Continued Detention Claim
As provided under Section 316.1934, Florida Statutes, “if a person registers ‘at the time’ of a breathalyzer test, a ‘breath-alcohol level of 0.05 or less, it is
presumed that the person was not under the influence
of alcoholic beverages to the extent that his or her
normal faculties were impaired.’ ” Festa v. Santa Rosa

App. 40
County Florida, 413 F. App’x 182, 186 (11th Cir. 2011)
(quoting Fla. Stat. § 316.1934(2)(a)). The presumptions
delineated in Section 316.1934(2)(a), Florida Statutes
“do not limit the introduction of any other competent
evidence bearing upon the question of whether the
person was under the influence of alcoholic beverages
to the extent that his or her normal faculties were impaired.” Fla. Stat. § 316.1934(2)(c).
Defendants aver that, as set forth in Festa v. Santa
Rosa County Florida, 413 F. App’x 182 (11th Cir. 2011),
there is a lack of constitutional authority, statutory
authority, or case law establishing that Barnett had a
clearly established constitutional right to be released
upon registering 0.000 on the breathalyzer test. (Doc.
76 at 15-18); see Bannister v. Conway, 2013 WL
5770802, at *6 (N.D. Ga. Oct. 23, 2013) (granting qualified immunity to law enforcement officers on plaintiff ’s unreasonable detention claims and noting that
“the constitutional duty to release is itself not clearly
established”). However, controlling Eleventh Circuit
case law3 does establish that “[f ]ollowing a lawful warrantless arrest, a police office has an affirmative duty
to release an arrestee if he ascertains beyond a reasonable doubt that the probable cause which formed the
basis of the arrest was unfounded.” Strickland, 399
F. Supp. 2d at 1291 (quotation marks and citation
3

See United States v, Hogan, 986 F.2d 1364, 1369 (11th Cir.
1993) (“[I]t is the firmly established rule of this Circuit that each
succeeding panel is bound by the holding of the first panel to address an issue of law, unless and until that holding is overruled
en banc, or by the Supreme Court.”).

App. 41
omitted); cf. Cruz v. Davidson, 552 F. App’x 865, 868
(11th Cir. 2013) (linking probable cause analysis to a
§ 1983 detention claim and finding that probable cause
for arrest is sufficient to justify subsequent detention
for purposes of the Fourth Amendment).
MacArthur testified that she did not believe Barnett
was driving under the influence of any drug besides
alcohol and that she did not observe any drugs or feel
compelled to search the Vehicle for drugs. In fact, MacArthur admitted that she did not have probable cause
to believe that Barnett was impaired by any substance
besides alcohol. Especially after the breathalyzer test
established that Barnett did not have any alcohol in
her system, MacArthur did not have actual or arguable
probable cause to detain Barnett. To the extent that
MacArthur had discretionary authority over Barnett’s
continued detention after she blew a .000, MacArthur
is not protected by qualified immunity.4 Even if there
was initial probable cause for arrest, the question remains whether a reasonable officer in MacArthur’s position could have believed there was probable cause to
detain Barnett, either for purposes of obtaining a urine
sample or booking her into jail to be held for a minimum of eight (8) hours. As Barnett’s continued detention was not supported by arguable or actual probable
cause, MacArthur is not entitled to summary judgment
in her favor.
4

The parties dispute whether MacArthur is able to meet her
burden of proving that she was acting within the scope of her discretionary authority for purposes of a qualified immunity analysis. (See Doc. 92 at 17-18; Doc. 99 at 7.)

App. 42
3. Count VII: 42 U.S.C. § 1983 Claim against MacArthur for Malicious Prosecution
In Count VII, Barnett brings a 42 U.S.C. § 1983
claim against MacArthur for MacArthur’s alleged malicious prosecution of Barnett. (Doc. 50 ¶¶ 107-09.)
Purportedly, “MacArthur’s conduct violated [Barnett’s]
clearly established rights under the Fourth Amendment to the United States Constitution to be free from
involuntary detention in the absence of probable cause
and under the Fourteenth Amendment to the United
States Constitution to be free from involuntary detention and prosecution without due process of law.” (Id.
¶ 108.) MacArthur argues that there was both actual
and arguable probable cause for the proceedings
against Barnett, and she is entitled to qualified immunity. (Doc. 76 at 2, 4.) MacArthur further states that
she did not act with malice, she was “not the legal
cause of the prosecution,” and Barnett “was not seized
in relation to the prosecution.” (Id. at 4.)
The Eleventh Circuit “has identified malicious
prosecution as a violation of the Fourth Amendment
and a viable constitutional tort cognizable under § 1983.”
Wood v. Kesler, 323 F.3d 872, 881 (11th Cir. 2003). In
order to state a claim for malicious prosecution under
§ 1983, a plaintiff must establish elements of both a
common law malicious prosecution claim and an unlawful arrest in violation of the Fourth Amendment.
Grider v. City of Auburn, Ala., 618 F.3d 1240, 1256-57,
1257 n.25 (11th Cir. 2010); Ortega v. Christian, 85 F.3d
1521, 1525 (11th Cir. 1996) (a warrantless arrest without probable cause violates the Constitution and forms

App. 43
the basis of a 42 U.S.C. § 1983 malicious prosecution
claim), In order to state a claim for malicious prosecution, a plaintiff must allege facts demonstrating:
(1) an original criminal or civil judicial proceeding against the present plaintiff was
commenced or continued; (2) the present defendant was the legal cause of the original
proceeding against the present plaintiff as the
defendant in the original proceeding; (3) the
termination of the original proceeding constituted a bona fide termination of that proceeding in favor of the present plaintiff; (4) there
was an absence of probable cause for the original proceeding; (5) there was malice on the
part of the present defendant; and (6) the
plaintiff suffered damage as a result of the
original proceeding.
Infante v. Whidden, No. 2:12-cv-41-FtM-29UAM, 2013
WL 5476022, at *7 (M.D. Fla. Sept. 30. 2013) (quoting
Alterra Healthcare Corp. v. Campbell, 78 So. 3d 595,
602 (Fla. 2d DCA 2011)). A law enforcement officer will
be entitled to qualified immunity from a § 1983 malicious prosecution claim if there was arguable probable
cause for the arrest. Crosby v. Monroe Cnty., 394 F.3d
1328, 1332-33 (11th Cir. 2004) (law enforcement officer
that reasonably, albeit mistakenly, concludes that
there is probable cause to arrest someone is entitled
to immunity from suit).
As discussed supra, MacArthur did not, for purposes of summary judgment, have actual or arguable
probable cause to arrest and detain Barnett. However,

App. 44
in order to establish a § 1983 malicious prosecution
claim, a plaintiff must also show that her Fourth
Amendment right to be free from unreasonable seizures was violated. Kesler, 323 F.3d at 881. The plaintiff must thus prove “that she was seized in relation
to the prosecution, in violation of her constitutional
rights.” Kingsland, 382 F.3d at 1235. Further, “[i]n the
case of a warrantless arrest, the judicial proceeding
does not begin until the party is arraigned or indicted.”
Id. Conditions of pretrial release and the obligation to
attend court proceedings associated with prosecution
have been deemed as insufficient deprivations of liberty to qualify as a Fourth Amendment seizure for purposes of a § 1983 claim. See Donley v. City of Morrow,
Georgia, 601 F. App’x 805, 813-14 (11th Cir. 2015) (finding that plaintiff ’s warrantless arrest, arraignment,
and conditions of pretrial release do not constitute a
significant deprivation of liberty and seizure under
the Fourth Amendment); Kingsland, 382 F.3d at 1236
(“While we sympathize with [plaintiff ’s] anxiety and
inconvenience . . . we cannot go so far as to say that
the conditions of her pretrial release . . constituted a
seizure violative of the Fourth Amendment.”). In this
case, a criminal proceeding was filed against Barnett
on March 17, 2014, and Barnett appeared at her arraignment on April 16, 2014. Subsequently, on May 2,
2014, the state entered a nolle prosequi in the case. For
purposes of establishing a § 1983 malicious prosecution claim against MacArthur, there are no allegations
or evidence that Barnett was “seized” after charges
were filed against her such that Barnett’s liberty was
deprived in violation of her Fourth Amendment right

App. 45
to be free from seizure. Thus, MacArthur is entitled to
summary judgment in her favor on Count VII.
B. Federal Claims against Eslinger: Count II,
Count VIII
1. Municipal Liability Standard
“Local governing bodies [ ] can be sued directly
under § 1983 for monetary, declaratory, or injunctive
relief where [ ] the action that is alleged to be unconstitutional implements or executes a policy statement,
ordinance, regulation, or decision officially adopted
and promulgated by that body’s officers.” Monell v.
Dep’t of Soc. Servs. of New York, 436 U.S. 658, 690
(1978). However, it is well-settled that “under § 1983,
local governments are responsible only for ‘their own
illegal acts.’ ” Connick v. Thompson, 563 U.S. 51, 60
(2011) (quoting Pembaur v. Cincinnati, 475 U.S. 469,
479 (1986)). Official capacity suits against a law enforcement officer “represent only another way of pleading an action against an entity of which an officer is an
agent.” Monell, 436 U.S. at 691 n.55. A “municipality
cannot be held liable solely because it employs a tortfeasor—or, in other words, a municipality cannot be
held liable under § 1983 on a respondeat superior
theory.” Id. at 691. “Instead, to impose § 1983 liability
on a municipality, a plaintiff must show: (1) that his
constitutional rights were violated; (2) that the municipality had a custom or policy that constituted deliberate indifference to that constitutional right; and (3)
that the policy or custom caused the violation.”

App. 46
McDowell v. Brown, 392 F.3d 1283, 1289 (11th Cir.
2004). Additionally, “[i]f the decision to adopt [a] particular course of action is properly made by [the] government’s authorized decisionmakers, it surely
represents an act of official government ‘policy’ as that
term is commonly understood.” Pembaur, 475 U.S. at
481. In order to correctly plead that a municipality
should be held liable for the actions of its employees
because it ratified said actions, a plaintiff must show a
“persistent failure to take disciplinary action against
officers,” which “can give rise to the inference that a
municipality has ratified conduct, thereby establishing
a ‘custom’ within the meaning of Monell.” Fundiller v.
City of Cooper City, 777 F.2d 1436, 1443 (11th Cir.
1985) (citation omitted). Further, “a municipality’s failure to correct the constitutionally offensive actions of
its employees can rise to the level of a custom or policy
‘if the municipality tacitly authorizes these actions or
displays deliberate indifference’ towards the misconduct.” Griffin v. City of Opa-Locka, 261 F.3d 1295, 1308
(11th Cir. 2001) (quoting Brooks v. Scheib, 183 F.2d
1191, 1193 (11th Cir. 1987)).
2. Count 11: 42 U.S.C. § 1983 Claim against Eslinger for Arrest and Continued Detention
In Count II, Barnett alleges a 42 U.S.C. § 1983
claim against Eslinger in his official capacity for Barnett’s arrest and continued detention in purported violation of her Fourth and Fourteenth Amendment
rights. (Doc. 50 ¶¶ 78-83.) As grounds therefore, Barnett avers that Eslinger’s official written policy

App. 47
governing DUI detection, arrests, and detentions “was
the moving force behind MacArthur’s actions including
her decision to arrest [Barnett] for DUI despite the fact
that MacArthur knew or should have known she did
not have probable cause for the arrest.” (Id. ¶ 80.) Barnett argues that Eslinger’s “official policy, practice[,]
and custom was [also] the moving force behind MacArthur’s . . . continued detention of Barnett after she
arrived at the jail showing no signs of impairment, and
after her breathalyzer test results showed she had zero
alcohol in her system.” (Id. ¶ 81.) Barnett attests that
Eslinger has an “official policy, practice or custom of
requiring that DUI arrestees be detained in jail for a
minimum of eight (8) hours from the time of the arrest,
regardless of whether there is probable cause to believe the arrestee is impaired subsequent to their arrest and regardless of whether any arguable probable
cause for the arrest has since dissipated.” (Id.) Barnett
also states that “Eslinger’s official policy, practice and
custom of having deputies deliberately turn off their
microphones so there is no record of wrongdoing by the
deputies further demonstrates reckless indifference to
[Barnett’s] and other citizen’s federally protected
rights.” (Id. ¶ 82.) Purportedly, Eslinger’s policies violated Barnett’s constitutional rights to be free from involuntary detention in the absence of probable cause
and to be free from involuntary detention without due
process of law. (Id. ¶ 83.) Eslinger requests summary
judgment on the grounds that “DUI Sheriff ’[s] Policy
E-19 is not facially unconstitutional; that [Eslinger]
was not deliberately indifferent to known or obvious
consequences of the policy; and that there is not a

App. 48
policy of ‘failing to investigate’ DUI evidence. . . .” (Doc.
76 at 3.)
MacArthur explained the indicators that she looks
for when performing field sobriety tests and testified
that she was acting under Policy E-19, Eslinger’s DUI
Countermeasures Policy when she arrested Barnett.
(MacArthur Dep. at 68:24-69:8.) Although the written
purpose of Policy E19 is “to vigorously enforce DUI
traffic laws of the State of Florida,” Policy E-19 is not
facially unconstitutional as it does not itself violate
federal law or direct the violation of federal law. (See
Policy E-19 at Doc. 79-2.) Under Policy E-19, law enforcement officers are directed to arrest somebody for
driving under the influence only if they have probable
cause to believe the person is, in fact, under the influence of a chemical substance. (Id. at 2.) It is reasonable
to assume that an arrestee may begin to look and act
better over the course of time in jail, and an arrestee’s
negative breath alcohol test does not rule out impairments by controlled or chemical substances that require further laboratory testing. Policy E-19 and
Eslinger’s routine practice of holding people that have
been arrested for DUI for at least eight (8) hours (the
“Hold Policy”) are not facially unconstitutional and
were not moving forces behind any violation of Barnett’s constitutional rights related to her arrest or detention. (See Love Deposition, Document 79 at 20:1618.) In so finding, the Court notes that “[t]he practice
of detaining an intoxicated driver is to protect the
driver and the community from an unreasonable danger imposed by drunken driving.” Slate v. Atkinson, 755

App. 49
So. 2d 842, 844 (5th DCA 2000) (“Section 316.193(9),
Florida Statutes (1997), is not unconstitutional in allowing temporary detention of an apparently drunk
driver, . .”), Also, Florida law provides that a person
who is arrested for driving under the influence may not
be released from custody:
(a) Until the person is no longer under the
influence of alcoholic beverages, any chemical
substance set forth in s. 877.111, or any substance controlled under chapter 893 and affected to the extent that his or her normal
faculties are impaired;
(b) Until the person’s blood-alcohol level or
breath-alcohol level is less than 0.05; or
(c) Until 8 hours have elapsed from the time
the person was arrested.
Fla, Stat. § 316.193(9). The language of Section
316.193(9), Florida Statutes, thus allows for the option
of holding a person for eight (8) hours after a DUI arrest. Additionally, Barnett fails to provide sufficient
evidence showing that Eslinger deliberately ignored a
pattern or history of unconstitutional DUI arrests that
are attributable to Policy E-19.
Barnett also claims that Eslinger implements or
otherwise condones a policy that allows law enforcement officers to turn off their microphones when effectuating a traffic stop, and “the purpose is to avoid
creating a record of wrongdoing by the deputies.”
(Doc. 92 at 29.) However, Captain Shane Love (“Love”),
Eslinger’s Rule 30(b)(6) representative, testified that

App. 50
it is not the practice or policy of the Seminole County
Sheriff ’s Office for deputies to cease recording audio
when discussing whether to arrest someone. (Love
Dep. at 22:21-25.) Instead, Policy E-49 requires law
enforcement officers to leave their microphones turned
on after a DUI arrest unless, for example, the person
has already been arrested and the officer is waiting
for the arrestee’s car to be towed. (Id. at 24:13-18; see
Policy E-49 at Doc. 79-5.) Also, MacArthur testified she
wasn’t trained to turn off her microphone when having
discussions with other deputies. (MacArthur Dep. at
64:15-18.) Upon review, Policy E-49 is not facially unconstitutional, and there is no evidence that Eslinger
commonly ignored the requirement that deputies keep
their microphones turned on absent extenuating circumstances that were not applicable in Barnett’s case.
There is insufficient evidence to support Barnett’s
claims in Count II that Policy E-19, the Hold Policy,
Policy E-49, or any other policy at issue were facially
unconstitutional or were the “moving force” behind the
constitutional injuries at issue. See Gilmere v. City of
Atlanta, 737 F.2d 894, 901 (11th Cir. 1984) (In order
to establish municipal liability under § 1983, “[t]he
official policy or custom ‘must be the moving force of
the constitutional violation.’ ” (internal quotation
marks and citation omitted)). There is also insufficient
evidence to allow a reasonable juror to conclude that
Eslinger tacitly or explicitly authorized Barnett’s arrest or continued detention without probable cause, or
that Eslinger was deliberately indifferent to the alleged known or obvious consequences of the policies at

App. 51
issue. Accordingly, summary judgment in Eslinger’s favor on Count II will be granted.
3. Count VIII: 42 U.S.C. § 1983 Claim against Eslinger
for Malicious Prosecution
In Count VIII, Barnett avers that Eslinger’s “official policy, practice and custom to seek prosecution of
all DUI arrestees regardless of the circumstances . . .
violated [Barnett’s] clearly established rights under
the Fourth Amendment . . . to be free from involuntary
detention in the absence of probable cause.” (Id. ¶ 12.)
Barnett states that her Fourteenth Amendment right
“to be free from involuntary detention and prosecution without due process of law” was also violated. (Id.)
Eslinger avers that summary judgment in his favor on
Count VIII is appropriate because “[Barnett] was not
seized in relation to the prosecution[,] . . . probable
cause existed for the proceedings[,] and there was
no malice on the part of MacArthur.” (Doc. 76 at 4.)
Eslinger alleges that “there is no genuine issue of material fact that [Eslinger’s] policies were not the moving force behind the alleged constitutional violations.”
(Id.)
As discussed supra, a criminal proceeding was
filed against Barnett on March 17, 2014, and Barnett
appeared at her arraignment on April 16, 2014. Subsequently, on May 2, 2014, the state entered a nolle prosequi in the case. For purposes of establishing a § 1983
malicious prosecution claim, there are no allegations
or evidence that Barnett was “seized” after charges

App. 52
were filed in that her liberty was deprived in violation
of her Fourth Amendment right to be free from seizure.
Thus, Eslinger is entitled to summary judgment on
Count VIII.
C. State Law Claims
Count IV, Count V

against

MacArthur:

1. State Law Immunity Standard
Section 768.28, Florida Statutes, provides statutory immunity from civil suit for law enforcement officers employed by the State of Florida. See Fla. Stat.
§ 768.28. Specifically, Florida’s law enforcement officers are immune from individual liability for tortious
acts they perform within the scope of their employment provided they have not “acted in bad faith or
with malicious purpose or in a manner exhibiting wanton and willful disregard of human rights, safety, or
property.” Fla. Stat. § 768.28(9)(a); see Drudge v. City of
Kissimmee, 581 F. Supp. 2d 1176, 1194-95 (M.D. Fla.
2008); Geidel v. City of Bradenton Beach, 56 F. Supp. 2d
1359, 1367-68 (M.D. Fla. 1999). In the context of Section 768.28(9)(a), “conduct committed in bad faith has
been characterized as conduct acted out with actual
malice,” while “wanton and willful” conduct must be
“worse than gross negligence” and “more reprehensible
and unacceptable than mere intentional conduct.”
Kastritis v. City of Daytona Beach Shores, 835
F. Supp. 2d 1200, 1225 (M.D. Fla. 2011) (citations omitted).

App. 53
2. Count IV: Common Law False Imprisonment
Claim against MacArthur
In Count IV, Barnett brings a common law false
imprisonment claim against MacArthur. (Doc. 50
¶¶ 89-92.) Barnett avers that “MacArthur unlawfully
detained and deprived [Barnett] of her liberty, against
her will, under circumstances that were unreasonable
or unwarranted.” (Id. 91.) Barnett further states that
“MacArthur was not within the course and scope of her
employment when she falsely imprisoned [Barnett]
and/or MacArthur was acting in bath faith or with
malicious purpose that was wanton and willful when
she falsely imprisoned [Barnett.]” (Id. 90.) MacArthur
argues that she is entitled to summary judgment and
as grounds therefore states that she has personal immunity under Section 768,28(9)(a), Florida Statutes
because “there is no genuine issue of material fact that
[MacArthur] did not act with bad faith, malicious purpose[,] or with wanton and willful disregard of human
rights and safety.” (Doc. 76 at 3.) MacArthur further
avers that probable cause existed for Barnett’s arrest
and detention. (Id.)
Florida law provides that “a person is guilty of a
DUI offense if the person is driving or in actual physical control of a vehicle, and that person is affected by a
substance to the extent that his normal facilities are
impaired or he has a breath-alcohol level over .08.”
Holt, 486 F. App’x at 99 (citing Fla. Stat. § 316.193).
The tort of false arrest is defined as “the unlawful restraint of a person against his will, the gist of which
action is the unlawful detention of the plaintiff and

App. 54
deprivation of his liberty.” Johnson v. Weiner, 19 So. 2d
699, 700 (Fla. 1944); see Willingham v. City of Orlando,
929 So. 2d 43, 48 (Fla. 5th DCA 2006). “Like it does in
1983 actions, the existence of probable cause or arguable probable cause defeats a Florida false arrest claim.”
See Caldwell v. Nocco, No. 8:14-cv-2167-T-30AEP, 2015
WL 9302835, at *4 (M.D. Fla. Dec. 22, 2015) (citation
omitted). However, under Florida law and in contrast
to § 1983 actions, the defendant has the burden of
proving arguable probable cause as an affirmative defense. Id.
Although MacArthur admits that she stated “I
will” in response to another law enforcement officer
yelling out “have fun,” she avers that she was being
sarcastic about upcoming paperwork. (See MacArthur
Dep. at 279:23-280:2.) Regardless, the video and audio
evidence show MacArthur treating Barnett in a respectful and professional manner before, during, and
after Barnett’s arrest. MacArthur’s conduct related to
Barnett’s arrest and detention does not evidence bad
faith, actual malice, or wanton and willful disregard of
human rights, safety, or property sufficient to override
MacArthur’s state law immunity from Barnett’s
claims. Thus, the Court will enter summary judgment
in MacArthur’s favor on Count IV.
3. Count V: Common Law Malicious Prosecution
Claim against MacArthur
In Count V, Barnett alleges that MacArthur was
the legal cause of the criminal proceeding against

App. 55
Barnett that was commenced on March 17, 2014 in the
Eighteenth Judicial Circuit of the State of Florida.
(Doc. 50 ¶¶ 94-95.) As grounds therefore, Barnett avers
that “MacArthur provided information she knew or
should have known to be false and/or misleading to
the State Attorney, upon which information the State
Attorney relied to commence the original criminal proceeding.” (Id. ¶ 96.) Barnett states that, “[t]he original
criminal proceeding was commenced and continued
without probable cause” and that MacArthur acted
intentionally and with malice. (Id. ¶¶ 98-100.) MacArthur argues that she is entitled to summary judgment on Count V because “there is no genuine issue of
material fact that MacArthur did not act with actual
malice; that probable cause existed; and finally that
MacArthur was not the legal cause of the prosecution.”
(Doc. 76 at 3.)
Under Florida law, in order to prevail on a malicious prosecution claim, a plaintiff must establish the
absence of probable cause for an arrest and the presence of malice therein, amongst other elements. See
Kest v. Nathanson, 216 So. 2d 233, 235 (Fla. 4th DCA
1968). The element of malice may be proven through
a showing of actual malice or an inference of legal
malice. Douglas v. United Slates, 796 F. Supp. 2d 1354,
1367 (M.D. Fla. 2011). However, although legal malice
may be sufficient to support a malicious prosecution
claim, legal malice is not the type of malice contemplated under Section 768.28(9) that results in a state
employee losing individual immunity for actions taken

App. 56
inside the course and scope of his or her employment.
See Moore v. Seminole Cty., Fla., No. 6:13-cv-224-Orl31GJK, 2014 WL 4278744, at *6 (M.D. Fla. Aug. 29,
2014), aff ’d sub nom. Moore v. Pederson, 806 F.3d 1036
(11th Cir. 2015) (“Stated differently, the cases cited by
Moore may establish that legal malice is sufficient to
prevail on a malicious prosecution claim under Florida
law, but they do not establish that legal malice is sufficient to overcome the immunity from personal liability
provided by Fla. Stat. § 768.28(9).”).
In this case, the video and audio evidence show
MacArthur treating Barnett in a respectful and professional manner. Additionally, although MacArthur submitted Barnett’s case package to the State Attorney’s
Office, which did not include every detail about her
interactions with Barnett, there is no evidence that
MacArthur omitted information or otherwise mislead
the State Attorney’s Office as to the evidence in bath
faith or with a malicious intent or in wanton and willful disregard of Barnett’s constitutional rights. Further, there is no evidence that MacArthur contacted
anyone, including personnel in the State Attorney’s
Office, in an effort to influence Barnett’s case in any
manner. Accordingly, MacArthur is entitled to immunity from Barnett’s malicious prosecution claims and
will be awarded summary judgment on Count V.

App. 57
D. State Law Claims against Eslinger: Count III,
Count VI
1. Municipal Liability Standard
In accordance with Section 768.28, Florida Statutes, a government entity may be held liable for torts,
negligent and intentional, committed by an employee,
unless the employee committed same outside the
course and scope of employment or was acting in bad
faith, or with a malicious purpose or in a manner exhibiting wanton and willful disregard of human rights,
safety, and property. See Fla. Stat. § 768.28 (providing
the statutory framework for Florida’s waiver of sovereign immunity in tort actions); Geidel, 56 F. Supp. 2d
at 1365 (explaining that a municipality can be held liable for an intentional tort committed by an employee
when the waiver of sovereign immunity set forth in
Section 768.28, Florida Statutes, applies). As set forth
in Section 768.28(5), “[t]he state and its agencies and
subdivisions shall be liable for tort claims in the same
manner and to the same extent as a private individual
under like circumstances.” Fla. Stat. § 768.28(5); see
Caldwell, 2015 WL 9302835, at *6 (“In circumstances
where, as here, personal liability is foreclosed by Florida’s immunity statute, a remedy remains available
against the agency itself, or its representatives in their
official capacities.”).

App. 58
2. Count III: Common Law False Imprisonment
Claim against Eslinger
In Count III, Barnett avers that MacArthur
falsely imprisoned Barnett in violation of Florida
common law. (Doc. 50 ¶¶ 85-86.) Barnett alleges that
“Eslinger unlawfully detained and deprived [Barnett]
of her liberty, against her will, under circumstances
that were unreasonable or unwarranted.” (Id. ¶ 87.)
Eslinger argues that summary judgment in his favor
on Count III is appropriate because probable cause
existed for Barnett’s arrest and detention. (Doc. 76 at
3.)
Genuine issues of material fact preclude the entry
of summary judgment on the issue of MacArthur having probable cause to arrest and detain Barnett. Additionally, a reasonable juror could find that the record
evidence, particularly the breathalyzer test results,
demonstrates beyond a reasonable doubt that Barnett
was not impaired and should have been immediately
released from detention.5 Thus, the Court will not
award summary judgment in Eslinger’s favor on Count
III.

5

As set forth in Defendants’ Motion for Summary Judgment,
the cases referenced by Mathis v. Coals, 24 So.3d 1284 (Fla. 2d
DCA 2010) “generally stand for the proposition that continued
detention is inappropriate only if it is determined ‘beyond a reasonable doubt that the probable cause which formed the basis for
the arrest was unfounded.’ ” (Doc. 76 at 24); see Mathis, 24 So.3d
at 1290 (citations omitted).

App. 59
3. Count VI. Common Law Malicious Prosecution
Claim against Eslinger
In Count VI, Barnett avers that “Eslinger was the
legal cause of the commencement of the criminal proceeding against [Barnett] as it is his official policy,
practice and procedure to file charges with the state
to have DUI arrestees prosecuted regardless of the circumstances.” (Doc. 50 ¶ 104.) Purportedly, “Eslinger’s
implementation of an official policy, practice and custom of filing charges with the state to have DUI arrestees prosecuted regardless of the circumstances is
malicious and in reckless disregard of [Barnett’s]
rights, safety, and welfare . . . ” (Id. ¶ 105.) In his defense, Eslinger argues that Section 768,28(9), Florida
Statutes, does not recognize a malicious prosecution
claim against him in his official capacity and he “cannot be liable by virtue of sovereign immunity and separation of powers.” (Doc. 76 at 3-4.) Eslinger further
posits that there is no genuine issue of material fact
that probable cause existed for Barnett’s arrest, and
there is a lack of malice and causation. (Id. at 4.)
Barnett avers that, pursuant to Eslinger’s “official
policy, practice and procedure,” charges were filed
against her solely because she was a DUI arrestee,
without proper regard to the specific facts of her case.
(See Doe. 50 ¶ 104.) However, despite extensive discovery in this case, including but not limited to deposition
testimony and the exchange of numerous policy documents, Barnett has not elicited concrete evidence of
such policy. Accordingly, based on the evidence in this
case, a reasonable juror could not conclude that

App. 60
Eslinger is liable for malicious prosecution of Barnett
because of an “official policy, practice and procedure” or
otherwise. The Court will thus award summary judgment in Eslinger’s favor on Count VI.
E. Barnett’s § 1983 Fourteenth Amendment
Claims
As provided under the Fourteenth Amendment to
the United States Constitution, no state shall “deprive
any person of life, liberty, or property, without due process of law.” U.S. Const. amend. XIV, § 1. The Due Process Clause of the Fourteenth Amendment “is phrased
as a limitation on the State’s power to act, not as a
guarantee of certain minimal levels of safety and security.” DeShaney v. Winnebago Cnty. Dept. of Soc. Servs.,
489 U.S. 189, 195 (1989). “[Nothing in the language of
the Due Process Clause itself requires the State to protect the life, liberty, and property of its citizens against
invasion by private actors.” Id. With respect to conduct
by a government actor, such “will rise to the level of a
substantive due process violation only if the act can be
characterized as arbitrary or conscience shocking in a
constitutional sense.” Waddell v. Hendry Cnty. Sheriff ’s
Office, 329 F.3d 1300, 1305 (11th Cir. 2003). “[O]nly
the most egregious official conduct can be said to be
‘arbitrary in the constitutional sense.’ ” County of Sacramento v. Lewis, 523 U.S. 833, 846 (1998) (quoting
Collins v. City of Harker Heights, 503 U.S. 115, 129
(1992)). Further, whether conduct is egregious is evaluated from the time the government actor made the
decision rather than from hindsight. Waddell, 329 F.3d

App. 61
at 1305. Additionally, “[i]n some cases, a state official’s
deliberate indifference will establish a substantive due
process violation.” Id. at 1306.
Defendants posit that they are entitled to summary judgment on Barnett’s Fourteenth Amendment
claims contained in her 42 U.S.C. § 1983 claims. (Doc.
76 at 30-31.) Barnett admits that her § 1983 malicious
prosecution claims against Defendants do not implicate the Fourteenth Amendment. (See Doc. 92 at 3435.) Accordingly, summary judgment will be granted
in Defendants’ favor on Barnett’s Fourteenth Amendment claims in Count VII and Count VIII. Additionally,
Barnett’s false arrest and continued detention claims
are properly brought and analyzed under the Fourth
Amendment, rather than the Fourteenth Amendment.
See Strickland, 399 F. Supp. 2d 1285 (analyzing motorist’s § 1983 claims related to his arrest for driving
under the influence and his subsequent, approximately seven (7) hour, detention under the Fourth
Amendment and finding that motorist’s “arrest and
his subsequent detention—both of which involve a
‘seizure’ . . . should be analyzed under the ‘objective
reasonableness’ standard of the Fourth Amendment”)
(citing Tinney v. Shores, 77 F.3d 378, 381 (11th Cir.
1996)). Accordingly, the Court will grant summary
judgment in MacArthur’s favor on Count I and will
grant summary judgment in Eslinger’s favor on Count
II to the extent that Barnett relies on the Fourteenth
Amendment to bring said claims.

App. 62
F. Punitive Damages
Pursuant to Section 768.72(2), Florida Statutes,
“[a] defendant may be held liable for punitive damages
only if the trier of fact, based on clear and convincing
evidence, finds that the defendant was personally
guilty of intentional misconduct or gross negligence.”
Fla. Stat. § 768.72(2). In § 1983 cases, punitive damages awards “are appropriate where a defendant’s
conduct is motivated by evil intent or involves callous
or reckless indifference to federally protected rights.”
H.C. by Hewett v. Jarrard, 786 F.2d 1080, 1089 (11th
Cir. 1986) (citing Smith v. Wade, 461 U.S. 30, 56 (1983)).
The Court finds MacArthur’s conduct prior, during,
and after Barnett’s arrest did not rise to the level that
is necessary to support Barnett’s claims for punitive
damages. Accordingly, MacArthur will be awarded
summary judgment in her favor on Barnett’s punitive
damages claims.
IV.

CONCLUSION

For the foregoing reasons, it is ORDERED and
ADJUDGED as follows:
1. Defendants Sara MacArthur and Donald
Eslinger’s Motion for Summary Judgment (Doe. 76) is
GRANTED in part and DENIED in part.
2. Defendants’ Motion for Summary Judgment
(Doc. 76) is GRANTED in that summary judgment
is awarded in Defendants’ favor on Count II, Count IV,
Count V, Count VI, Count VII, and Count VIII, The

App. 63
Court also awards summary judgment in Defendants’
favor on Plaintiff Seana Barnett’s Fourteenth Amendment claims and punitive damages claims.
3. In all other respects, Defendants’ Motion for
Summary Judgment (Doc. 76) is DENIED.
4. The Clerk of Court is directed to ENTER
JUDGMENT accordingly.
DONE and ORDERED in Orlando, Florida on
this 16th day of November, 2016
/s/ G. Kendall Sharp
G. KENDALL SHARP
SENIOR UNITED STATES
DISTRICT JUDGE
Copies furnished to:
Counsel of Record

App. 64
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 18-12238-AA
-----------------------------------------------------------------------

SEANA BARNETT,
Plaintiff - Appellant,
versus
SARA MACARTHUR,
individually,
SHERIFF, SEMINOLE COUNTY FLORIDA,
in his official capacity as Sheriff of Seminole County,
Florida,
Defendants - Appellees,
DONALD ESLINGER,
in his official capacity as former Sheriff of Seminole
County, Florida,
Defendant.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Middle District of Florida
-----------------------------------------------------------------------

ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE:
Judges.

JORDAN, GRANT, and DUBINA, Circuit

PER CURIAM:

App. 65
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petition for Panel Rehearing is
also denied. (FRAP 40)
ORD-46

App. 66
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
SEANA BARNETT,
Plaintiff,
vs.
SARA MACARTHUR,
individually, and DENNIS
M. LEMMA, in his official
capacity as SHERIFF OF
SEMINOLE COUNTY,
FLORIDA,
Defendants.

CASE NO.: 6:15-CV469-Orl-18-DCI

/
VERDICT

(Filed Mar. 15, 2018)
Federal Claim Against MacArthur for
False Arrest and Detention in Violation of the
Fourth Amendment of the U.S. Constitution
(42 U.S.C. 1983)
Do you find from a preponderance of the evidence:
1.

That Defendant MacArthur intentionally
committed acts that violated Plaintiff Barnett’s Fourth Amendment right under the
United States Constitution not to be arrested
or detained without probable cause?
Answer Yes or No No
If your answer is “Yes,” proceed to question 2.

App. 67
If your answer is “No,” skip questions 2-4 and
proceed to question 5.
2.

That the conduct of Defendant MacArthur
caused loss, injury or damage to Plaintiff Barnett?
Answer Yes or No
If your answer is “Yes,” proceed to question 3.
If your answer is “No,” skip questions 3-4 and
proceed to question 5.

3.

That Plaintiff Barnett should be awarded
compensatory damages?
Answer Yes or No
If your answer is “Yes,” in what amount?
$
If you answered “Yes,” after filling in the
amount, skip question 4 and proceed to
question 5.
If your answer is “No,” proceed to question 4.

4.

That Plaintiff Barnett should be awarded
nominal damages?
Answer Yes or No

App. 68
Common Law Claim Against Defendant
Sheriff for False Imprisonment
Do you find from a preponderance of the evidence:
5.

That Defendant Sheriff, by and through the
conduct of Defendant MacArthur, caused
Plaintiff Barnett to be falsely imprisoned?
Answer Yes or No No
If your answer to question 5 is Yes, answer
question 6.
If your answer to question 5 is No, skip questions 6 through 8.

6.

That the Defendant Sheriff has proven the affirmative defense that probable cause existed
for the arrest and detention of Plaintiff Barnett by a preponderance of the evidence?
Answer Yes or No
If your answer is Yes, skip questions 7-8.
If your answer is No, proceed to question 7.

7.

That the conduct of Defendant MacArthur
caused loss, injury or damage to Plaintiff Barnett?
Answer Yes or No

8.

That Plaintiff Barnett should be awarded
compensatory damages?
Answer Yes or No
If your answer is Yes, in what amount?
$

App. 69
SO SAY WE ALL THIS 15 DAY OF MARCH, 2018.
/s/ Lisa Donaldson
Foreperson’s Signature

